<html>
<title> - EXAMINING THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION</title>
<body><pre>[Senate Hearing 114-173]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-173

               EXAMINING THE PRESIDENT'S FISCAL YEAR 2016
                    BUDGET REQUEST FOR THE NATIONAL
                  AERONAUTICS AND SPACE ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SPACE, SCIENCE, 
                          AND COMPETITIVENESS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                          U.S. GOVERNMENT PUBLISHING OFFICE
98-478 PDF                    WASHINGTON : 2016                          
________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>  
    
       
       
          
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

          SUBCOMMITTEE ON SPACE, SCIENCE, AND COMPETITIVENESS

TED CRUZ, Texas, Chairman            GARY PETERS, Michigan, Ranking
MARCO RUBIO, Florida                 EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
CORY GARDNER, Colorado               BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2015...................................     1
Statement of Senator Cruz........................................     1
Statement of Senator Peters......................................     2
Statement of Senator Nelson......................................     3
Statement of Senator Gardner.....................................    33

                               Witnesses

Hon. Charles F. Bolden, Jr., Administrator, National Aeronautics 
  and Space Administration.......................................     4
    Prepared statement...........................................     6

                                Appendix

Hon. Marco Rubio, U.S. Senator from Florida, prepared statement..    43
Response to written questions submitted to Hon. Charles F. 
  Bolden, Jr. by:
    Hon. Roger F. Wicker.........................................    43
    Hon. Roy Blunt...............................................    48
    Hon. Marco Rubio.............................................    50

 
                 EXAMINING THE PRESIDENT'S FISCAL YEAR
                  2016 BUDGET REQUEST FOR THE NATIONAL
                  AERONAUTICS AND SPACE ADMINISTRATION

                              ----------                              


                        THURSDAY, MARCH 12, 2015

                               U.S. Senate,
       Subcommittee on Space, Science, and Competitiveness,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:38 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Cruz, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cruz [presiding], Gardner, Blunt, Peters, 
and Nelson.

              OPENING STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. The hearing will come to order. Good morning, 
everyone, and welcome.
    We gather here this morning not simply to examine the 
President's budget request but to begin to lay out a vision for 
the future of NASA and human exploration. As we begin the 
process of putting together a road map for the future of NASA, 
there is one vital question that this committee should examine: 
Should NASA focus primarily inwards or outwards beyond low-
Earth orbit?
    Since the end of the last administration we have seen a 
disproportionate increase in the amount of Federal funds that 
have been allocated to the Earth Science Program at the expense 
of and in comparison to exploration and space operations, 
planetary science, heliophysics and astrophysics, which I 
believe are all rooted in exploration and should be central to 
the core mission of NASA.
    As I observed at our last hearing, the first priority for 
the space component of this subcommittee is to work to refocus 
NASA's energies on its core priority of exploring space. I know 
that that is a passion of the professionals at this fine 
institution. I see good signs that the current goals set out 
for human exploration are being achieved, as witnessed in 
December with the incredibly successful launch of the Orion 
EFT-1, and yesterday at Orbital ATK's solid rocket motor test 
in Utah, the engine that will power the space launch system 
into deep space.
    But we need to use that momentum and get back to the hard 
sciences, to manned space exploration, and to the innovation 
that has been integral to the mission of NASA. We also need to 
provide the men and women that work at NASA with clear and 
consistent long-term mission objectives so that they do not 
find themselves continually pouring time and energy into 
projects, only to see them swept up and carried away by the 
ever-changing winds of politics.
    Science needs to drive NASA's mission, rather than the 
political winds of Washington. Short-changing these projects 
will surely have an adverse impact on encouraging our nation's 
best and brightest to continue to want to work with NASA.
    As the Chairman of this Subcommittee, I am looking forward 
to being an outspoken champion not only for NASA and not only 
for the Johnson Space Center, but for everyone within the NASA 
family who plays a key role in advancing human exploration and 
promoting the hard sciences.
    As former NASA astronaut, Dr. Mike Massimino, mentioned at 
our last hearing, young Americans are interested in space-
related STEM careers and see themselves as future space 
entrepreneurs. It's critical that we begin to refocus the core 
priorities of NASA so that greater and exciting new 
opportunities can emerge and be realized. It is time for man 
once again to leave the safety of the harbor and to further 
explore the deep, uncharted waters of deep space.
    I now recognize the Ranking Member, Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman. It's wonderful to 
serve with you on this committee, and I look forward to working 
with you in the years ahead.
    This month we celebrate the 100th anniversary of the 
National Advisory Committee for Aeronautics, or NACA. Congress 
created NACA in 1915 because even though the Wright Brothers 
had invented powered flight in the U.S. in 1903, by the 
beginning of World War I the U.S. lagged behind Europe in 
aviation technology.
    Within decades of NACA's creation, the U.S. was leading the 
world in aviation once again. We put the P51 Mustang in the 
sky, a fighter that proved so critical to the success of the 
Allies against Hitler. And later, in 1947, we were the envy of 
the world when Chuck Yeager's X-1 rocket plane broke the sound 
barrier.
    But when the Soviet Union placed the first artificial 
satellite in orbit around the Earth, the U.S. was once again 
behind. Congress responded this time by folding the efforts of 
NACA into the newly established National Aeronautics and Space 
Administration, or NASA, in 1958.
    By 1969, NASA put astronauts Neil Armstrong and Buzz Aldrin 
on the Moon, and in the decades following, NASA sent probes to 
explore the worlds of our solar system, built telescopes in 
space to peer to the edges of the universe, built a research 
outpost in space permanently tended by a crew of international 
astronauts, and made it possible to study the planet that we 
call home from space.
    Over the past century, the investments we have made in our 
civil aeronautics and space programs look pretty modest 
compared to the returns. Safe and reliable commercial air 
transportation, communication satellites, space-based imagery, 
and spinoff technologies from human spaceflight have provided 
our country extraordinary economic benefits.
    The Apollo and Space Shuttle programs inspired generations 
of American students to pursue education in math, science, and 
engineering, many of whom went on to lead a revolution in 
computing and information technology. Just a few years back, I 
visited a high school in my home state of Michigan and I 
witnessed firsthand NASA's continued ability to inspire. All of 
the students were gathered in the gym to watch a large 
projector screen that connected them directly to U.S. 
astronauts on the International Space Station. And when the 
astronauts asked if any of the students planned to pursue 
degrees in the STEM fields, hundreds of hands shot up across 
the auditorium.
    Today, it is simply impossible to imagine the world devoid 
of the scientific understanding that NASA has enabled us to 
achieve. Because of NASA, we know our planet is a fragile oasis 
in an unimaginably vast space. We know every point in the 
universe is speeding away from us at an accelerating pace, 
driven by some unseen force called dark energy. We know our 
galaxy is filled with billions and billions of planets, many of 
them possibly very much like our Earth. And we have seen 
actions and evidence of black holes, whose mind-bending physics 
remind us of how much we have to learn about the fundamental 
nature of space and time.
    I see NASA's budget as a strategic portfolio of investments 
aimed at improving the well-being of our country and of our 
civilization. Like any portfolio, we must carefully choose our 
investments and remember that the balance of the overall 
portfolio is of the utmost importance. We must avoid false 
choices between robotic exploration, human exploration, the 
study of the universe, or the study of our home planet. We must 
avoid the temptation to view NASA's mission as a set of 
competing priorities. Rather, we should seek a set of 
complementary initiatives that will pay returns to our 
civilization for centuries to come.
    I want to thank you, Administrator Bolden, for your service 
to our country and your appearance before the Subcommittee 
today. And I want to thank you, Chairman Cruz, for holding this 
hearing, and Ranking Member Nelson for everything you have done 
and continue to do for our space program and for the example 
that you set for this committee.
    Although my position on this committee is new, my passion 
for science and technology is not, and I am truly excited about 
my opportunity to serve as Ranking Member for the Subcommittee, 
and I look forward to our discussion today. Thank you.
    Senator Cruz. Thank you very much.
    I would offer the Ranking Member of the full committee, 
Senator Nelson, an opportunity to give a statement as well.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, you're very gracious, Mr. Chairman, 
and I want to compliment you. At the last hearing I said even 
though the temperature outside was 10 degrees, that blossoms 
were breaking out all over Washington by virtue of the very 
supportive statements that you had made about NASA, of which 
you have continued those very supportive statements. I want you 
to know how much the NASA community and NASA family is 
appreciative of that support.
    I want to point out that in some quarters it seems to be 
fashionable to say that Earth Science is not a part of the 
exploration program, and yet I would point out that tonight 
there is the launch of a mission called MMS. It has to do with 
a magnetosphere, and it will be a mission to gauge space 
weather--in other words, nuclear explosions from the surface of 
the sun--and how that affects our life here on Earth, GPS, 
various other satellites.
    So Earth Science directly relates to everything that we're 
doing in exploration, and I would draw that distinction for 
folks who think that it's not fashionable that NASA be a part 
of Earth Science.
    The other thing is that I want to compliment the Ranking 
Member, to see someone so enthusiastic as Senator Peters is, is 
indeed extremely gratifying.
    And furthermore, I would like to congratulate the 
Administrator. He is now going on 7 years. His hair was dark 
when he started.
    [Laughter.]
    Senator Nelson. The fact that he's been able to get 
everybody in the harness over there at NASA, now without a 
deputy, although the nominee for deputy is sitting in the front 
row, and he has got everybody in the harness pulling in the 
right direction, all in the same direction, which is a 
significant accomplishment for the Administrator.
    So I just wanted to pass around those compliments to you, 
to Senator Peters, and to the Administrator. Thank you.
    Senator Cruz. Well, thank you very much, Senator Nelson, 
and it has been a pleasure the last 2 years serving on this 
committee with you as the Chairman of the Subcommittee, and I'm 
looking forward to the next 2 years continuing to serve with 
you and with the new Ranking Member, Senator Peters.
    We have a lot of work to do, and we are blessed to have a 
Subcommittee with some talented and dedicated members on both 
sides of the aisle who are committed to the core mission of 
NASA.
    With that, I'm very pleased to introduce and welcome the 
distinguished Administrator of NASA, the Honorable Charles 
Bolden.

           STATEMENT OF HON. CHARLES F. BOLDEN, JR.,

              ADMINISTRATOR, NATIONAL AERONAUTICS 
                    AND SPACE ADMINISTRATION

    Mr. Bolden. Thank you very much, Mr. Chairman.
    Mr. Chairman and Ranking Member Peters, I want to, first of 
all, on behalf of the entire NASA family, congratulate the two 
of you on your positions. I look forward to working with you.
    It was interesting sitting here listening to everyone speak 
because I really appreciate the work that this committee has 
done through the years. It was here that the 2010 Authorization 
Act was crafted, and that is the present road map on which we 
work. So I commend the Committee and look forward to continuing 
to work with you all.
    The President is proposing a Fiscal Year 2016 budget of 
$18.5B for us that builds on the 2015 appropriation and the 
significant investments that the Administration and the 
Congress have made in America's space program over the past 6 
years.
    Thanks to the hard work of our NASA team and partners all 
across America, we've made a lot of progress on our journey to 
Mars. In fact, we have now progressed farther on this path to 
sending humans to Mars than at any point in NASA's history, and 
this budget will keep us marching forward.
    The support of this subcommittee and the Congress are 
essential to this journey. The International Space Station is a 
critical first step in this work. It's our springboard to the 
rest of the solar system, and we're committed to extending 
Space Station operations to at least 2024.
    Thanks to the grit, determination, and American ingenuity, 
we have returned ISS cargo resupply missions to the United 
States, in-sourcing these jobs and creating a new private 
market in low-Earth orbit. Under a plan outlined by the 
Administration early in its term, we also have awarded two 
American companies, SpaceX and Boeing, fixed-price contracts to 
safely and cost-effectively transport our astronauts to the 
Space Station from U.S. soil. This will end our sole reliance 
on Russia. It's critical that we receive the funding requested 
for the 2016 budget so that we can meet our 2017 target date 
and stop writing checks to the Russian space agency.
    Our newest, most powerful rocket ever developed, the Space 
Launch System, or SLS, has moved from formulation to 
development, something no other exploration-class vehicle has 
achieved since the agency built the Space Shuttle. The Orion 
spacecraft performed flawlessly on its first trip to space this 
past December. The SLS and Exploration Ground Systems are on 
track for launch capability readiness by November 2018, and the 
teams are hard at work on completing technical and design 
reviews for Orion.
    Our budget also funds a robust science program with dozens 
of operating missions studying our solar system and the 
universe. New Horizons is preparing for its arrival at Pluto in 
July, and Dawn is now in orbit around the dwarf planet Ceres. 
Before we send humans to Mars, robots are paving the way. We 
are at work on a Mars Rover for 2020 and have begun planning a 
mission to explore Jupiter's fascinating moon Europa.
    NASA is a leader in Earth Science, and our constantly 
expanding view of our planet from space is helping us better 
understand and prepare for these changes. NASA has 21 research 
missions studying Earth, and the last year alone we launched an 
unprecedented five more. We are at work on humanity's first 
voyage to our home star, a mission that will repeatedly pass 
through the Sun's outer atmosphere. Senator Nelson also 
mentioned a little bit earlier that we will launch the MMS 
mission tonight.
    NASA's Hubble, Chandra and Kepler Space Telescopes explore 
the universe beyond our solar system. Hubble's successor, the 
James Webb Space Telescope, is taking shape right now out in 
Maryland, and the new mission is in development to extend 
Kepler's pioneering work in finding planets.
    Technology drives science, exploration, and our journey 
deeper into the solar system and to Mars. With the President's 
request, NASA will continue to maintain a steady pipeline of 
technology to ensure that we continue to lead the world in 
space exploration and scientific discovery.
    NASA is also with you when you fly, and we're committed to 
transforming aviation by dramatically reducing its 
environmental impact, maintaining safety in more crowded skies, 
and paving the way toward revolutionary aircraft shapes and 
propulsion systems.
    Mr. Chairman, America's space program is not just alive, 
it's thriving. The strong support we receive from this 
subcommittee and the entire Congress is making that happen, and 
I particularly appreciate the generous Fiscal Year 2015 
appropriation.
    As the President said in his State of the Union address, 
and I quote, ``We are pushing out into the solar system not 
just to visit, but to stay, part of a reenergized space program 
that will send American astronauts to Mars,'' unquote. NASA 
looks forward to working with the Congress to make this vision 
a reality.
    I would be pleased to respond to any questions you and the 
Committee may have.
    [The prepared statement of Mr. Bolden follows:]

   Prepared Statement of Hon. Charles F. Bolden, Jr., Administrator, 
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee, I am pleased to have 
this opportunity to discuss NASA's FY 2016 budget request. The 
President is proposing an FY 2016 budget of $18.5 billion for NASA, 
building on the significant investments the Administration has made in 
America's space program over the past six years, enabled through the 
strong and consistent support by this Committee and the Congress. This 
request will allow NASA to continue to lead the world in space through 
a balanced program of exploration, science, technology, and aeronautics 
research. NASA is an outstanding investment for our Nation not only 
because we uncover new knowledge, but because we raise the bar of human 
achievement, inspiring the next generation of scientists, engineers and 
astronauts.
    The FY 2016 request includes $4,505.9 million for Exploration with 
$2,862.9 million for Exploration Systems Development, $1,243.8 million 
for Commercial Space Flight, and $399.2 million for Exploration 
Research and Development. This funding, with critical investment from 
each of NASA's mission directorates, supports NASA's plans to, as the 
President said in his State of the Union speech, continue our journey 
to Mars and push ``out into the solar system not just to visit, but to 
stay[.]'' NASA has made tremendous progress on this journey, and we 
will continue to progress, with building momentum, through the years to 
come.
    As part of our strategic, stepping stone approach to deep-space 
explorations, NASA is facilitating the development of a U.S. commercial 
crew transportation capability with the goal of launching NASA 
astronauts from American soil in the next couple of years. This 
initiative to facilitate the success of U.S. industry to provide crew 
transportation to low Earth orbit will end our sole reliance on Russia 
and ensure that we have safe, reliable and cost-effective access to the 
ISS and low-Earth orbit. Commercial Products Contracts allowed 
potential providers to better understand and align with NASA human 
spaceflight requirements and gave NASA early insight into vehicle 
designs and approaches. NASA has now entered the development and 
certification phase with the award of two FAR-based, fixed-price 
Commercial Crew Transportation Capability (CCtCap) contracts to 
American companies to transport our Astronauts to and from the ISS. 
SpaceX and Boeing have laid out milestones with the goal of certified 
commercial crew capability in 2017. The contractors are committed and 
at work. Our approach has emphasized competition and redundancy to 
ensure that NASA's human safety and certification requirements are met, 
we achieve the best value for the American taxpayer, and we end our 
sole reliance on Russia for transportation services. Now, we need the 
funding necessary to execute this plan to completion. With continued 
support from the Congress, crews will again launch to the ISS from 
American soil by 2017.
    Technology drives science, exploration and economic opportunity. 
NASA will continue to maintain a steady pipeline of technology to 
ensure that we continue to lead the world in space capabilities. NASA's 
FY 2016 request includes $724.8 million for Space Technology, to 
conduct rapid development and infusion of transformative space 
technologies that enable NASA's missions and advance our country's 
dynamic aerospace industry services. Over the next two years, NASA will 
execute several in-space demonstrations including: a deep space atomic 
clock for advanced navigation, green propellant and four small 
spacecraft demonstrating pioneering new technologies. This summer, NASA 
plans to again test our Low Density Supersonic Decelerator off the 
coast of Hawaii to continue proving in flight the new technologies 
critical for landing larger payloads on the surface of the Red Planet. 
Informed by the results of FY 2014 testing of solar array and thruster 
designs, NASA continues development of a high-powered solar electric 
propulsion capability to enable future exploration missions and meet 
needs of U.S. aerospace industry. We will continue to progress toward a 
2019 demonstration of space-to-ground laser communications, a 
capability that both American industry and NASA mission teams are eager 
to explore and harness. But the most exciting piece of our technology 
investments is the broad portfolio of research grants and other early 
stage investments, where the new technologies that will change the way 
we operate in space have a chance to move from ideas to components, to 
demonstrations of new systems and capabilities. These early stage 
investments are building stronger links between NASA and academia, and 
providing unique opportunities for the NASA workforce to innovate.
    In December, NASA completed the first orbital test flight of the 
Orion crew vehicle, including a successful high speed reentry through 
the atmosphere. The Exploration Flight Test 1 (EFT-1) mission of Orion 
was nearly flawless. For the first time in a generation, a deep-space 
U.S. exploration vehicle has splashed down in the Pacific, and what we 
are learning from this test gives us increasing confidence in the 
systems we are designing.
    Just as we have recently tested Orion by sending it on a shorter 
version of its future missions, we are continuously testing and 
experimenting on the International Space Station (ISS) in preparation 
for long-term missions in deep space. The Administration has committed 
to extending operation of the International Space Station to at least 
2024. The FY 2016 request includes $4,003.7 million for Space 
Operations, including $3,105.6 million for ISS. Two commercial 
providers are now under contract to supply cargo to this critical 
asset, making the extension possible and giving us increasing 
confidence in our long-term strategy. This month, NASA will launch 
astronaut Scott Kelly on a one-year mission aboard the ISS to learn 
more about how to live and work in space for the long term. We will 
compare his vital signs to those of his twin brother, Mark, here on 
Earth in a first-ever experiment using identical twins to learn more 
about the effects of living in space. This is just one example of the 
vital knowledge and technology that our outpost in space will provide 
over the coming decade. The Space Station is the cornerstone of our 
exploration strategy, a nearby outpost in space where humanity is 
taking its early steps on its journey into the solar system.
    For the next step on the journey, NASA is developing the required 
deep-space exploration infrastructure while we plan for the earliest 
missions. NASA has established Agency Baseline Commitments for the 
Space Launch System (SLS) and Exploration Ground Systems (EGS), each of 
which supports a launch capability readiness date for Exploration 
Mission 1 (EM-1) of November 2018. EM-1 is the first mission for SLS 
and Orion. NASA remains on schedule for this EM-1 launch readiness date 
for SLS and EGS. Baseline cost and schedule for Orion are now being 
developed. NASA's budget request provides the funding needed to keep 
SLS, Orion, and EGS on track. NASA will determine the integrated launch 
date for the EM-1 mission after all critical design reviews are 
complete, later this year. SLS and Orion are critical to human 
spaceflight beyond low-Earth orbit as part of an evolvable, 
sustainable, and affordable exploration program.
    The journey to Mars runs through cis-lunar space. NASA's initial 
deep-space mission will launch to a ``Distant Retrograde Orbit'' around 
the Moon. NASA will use this region of space to test and demonstrate 
operation of human-rated vehicles farther from Earth than ever before. 
In late 2020, NASA plans to launch an advanced solar electric 
propulsion based spacecraft to redirect a small asteroid or a boulder 
from a larger asteroid to lunar orbit. In 2025, launched by SLS, Orion 
will carry a two person crew on a 25-28 day mission to rendezvous with 
the asteroid in cis-lunar space. Orion will dock with the robotic 
spacecraft attached to the asteroid in lunar orbit for about five days. 
NASA's planning leverages development efforts from existing programs 
across NASA mission directorates, and provides a critical opportunity 
to exercise our emerging deep space exploration capabilities.
    As NASA strives to achieve the dream of sending humans to Mars, it 
is important to remember we are already there. For 40 years, 
increasingly advanced robotic explorers have studied the Red Planet. 
This has dramatically increased our scientific knowledge and helped 
pave the way for astronauts to travel there. Our latest Mars 
spacecraft, MAVEN (Mars Atmosphere and Volatile EvolutioN), arrived 
last September to study the upper atmosphere and joined a fleet of 
orbiters and rovers on the surface. Next year, we will send the InSight 
(Interior Exploration using Seismic Investigations, Geodesy and Heat 
Transport) lander to study the planet's deep interior. In 2020, a new 
rover, building on the incredible success of Curiosity, will help us 
prepare for the arrival of humans at Mars. The Mars 2020 rover will 
address the highest priority Mars science objectives recommended by the 
Planetary Decadal Survey and will carry exploration technology 
investigations to help plan future human missions.
    Mars is a key destination, but only one point on humanity's journey 
of discovery. Ours is a journey of understanding reaching through our 
Earth system, across our solar system, and beyond, deep into the 
universe. The FY 2016 budget request includes $5,288.6 million for 
Science to continue that mission, with $1,947.3 million for Earth 
Science, $1,361.2 million for Planetary Science, $709.1 million for 
Astrophysics, $620.0 million for the James Webb Space Telescope, and 
$651.0 million for Heliophysics.
    NASA's Planetary Science program continues to expand our knowledge 
of the solar system, with spacecraft in place from the innermost planet 
to the very edge of our sun's influence. After nine years and three 
billion miles of travel, the New Horizons spacecraft awakened and began 
to prepare for its arrival in the Pluto system in July. Right now, Dawn 
is approaching the dwarf planet Ceres. Juno is speeding toward Jupiter 
where it will not only send back unprecedented data from a first ever 
polar orbit of our giant neighbor, but will also demonstrate how solar 
power can work at great distances from the sun. With the FY 2016 
request, NASA will continue development of a robotic asteroid 
rendezvous and sample return mission, dubbed OSIRIS-REx, planned for 
launch in 2016. OSIRIS-REx will approach the near-Earth Asteroid Bennu, 
map the asteroid, and collect a sample for return to Earth in 2023. 
Looking further to the future, NASA is planning a mission to explore 
Jupiter's fascinating moon Europa, selecting instruments this spring 
and moving toward the next phase of our work.
    The most important planet we study is the one on which we live--
Earth. Today, 21 NASA-developed research missions orbit Earth and 
provide a quantitative understanding of our complex planet, its origins 
and its future. In the last year, we have launched an unprecedented 
five Earth Science missions, starting with the Global Precipitation 
Measurement Core Observatory (GPM) that already has observed Hurricane 
Arthur's brush of the East Coast last July. The Soil Moisture Active 
Passive (SMAP) mission, launched in January, will give us for the first 
time ever, a picture of soil moisture on a global scale, allowing 
scientists to monitor droughts and predict flooding caused by severe 
rainfall or snowmelt. New research missions in formulation include 
PACE, the Pre-Aerosol, Clouds and ocean Ecosystem continuity mission, 
that observes ocean color, aerosols, and clouds; NISAR, the NASA-ISRO 
Synthetic Aperture Radar mission, being developed in partnership with 
the Indian Space Research Organization to measure complex processes 
such as ecosystem disturbances and ice-sheet collapse; and CLARREO, the 
Climate Absolute Radiance and Refractivity Observatory Pathfinder that 
will begin pre-formulation this fiscal year.
    The Landsat series of satellites is a cornerstone of our Earth 
observing capability. The world relies on Landsat data to detect and 
measure land cover/land use change, the health of ecosystems, and water 
availability. The President's FY 2016 request recognizes Landsat's 
critical importance and sets out a multi-decadal plan for an Earth-
observing architecture that ensures data continuity and reliability. 
The Sustainable Land Imaging program partnership with the Department of 
the Interior's U.S. Geological Survey will include flight of a thermal-
infrared free flyer and an upgraded Landsat-9 mission, while infusing 
new technological developments for future missions and ensuring 
consistency with the existing 42-year Landsat data record.
    Twenty-five years ago this April NASA deployed the Hubble Space 
Telescope. Hubble is still doing amazing science, and the last textbook 
that will have to be revised because of its discoveries has not yet 
been written. In just slightly over three years, NASA plans to launch 
the James Webb Space Telescope (JWST), Hubble's successor, and continue 
to reveal the unknown with the largest observatory ever put into space. 
This amazing telescope is taking shape right now in suburban Maryland, 
where this year the mirrors will be installed on the telescope 
backplane. The ``heart'' of the telescope that holds its instruments 
successfully completed a nearly four-month test in a cryogenic thermal 
vacuum chamber. NASA's Astrophysics program operating missions include 
the Hubble, Chandra, Spitzer, and Kepler telescopes, the Stratospheric 
Observatory for Infrared Astronomy (SOFIA) airborne observatory, and 
other missions that together comprise an unrivaled resource for the 
study of our universe. With the FY 2016 request, NASA will continue 
development of the Transiting Exoplanet Survey Satellite (TESS). TESS 
will extend the pioneering work of the Kepler Space Telescope, which 
showed us that virtually every star in the sky has a planetary system. 
TESS launches in 2018 and will discover rocky exoplanets orbiting the 
nearest and brightest stars in the sky in time for Webb to conduct 
follow-up observations. NASA will also continue pre-formulation of the 
Wide-Field Infrared Survey Telescope (WFIRST), the top priority for 
large-scale missions of the most recent National Academy of Science 
Decadal Survey in Astronomy and Astrophysics.
    Just as the most important planet that we study is the Earth, the 
most important star that we study is our own. NASA's Heliophysics 
Program is monitoring the Sun, near-Earth space, and the space 
environment throughout our solar system, with 29 spacecraft making up 
18 missions. These missions work toward one goal: to better understand 
the sun and its interactions with the Earth and solar system, including 
space weather. The FY 2016 request supports development of NASA's Solar 
Probe Plus (SPP) mission, planned for launch in 2018. SPP will be 
humanity's first voyage to our home star and will repeatedly pass 
through the Sun's hot outer atmosphere. NASA will also begin science 
operations of the Magnetospheric Multiscale (MMS) mission to 
investigate how magnetic fields around Earth connect and disconnect, 
explosively releasing tremendous amounts of energy in a process called 
magnetic reconnection.
    NASA's Aeronautics research is making air travel cleaner, safer, 
and more efficient. Every U.S. aircraft and U.S. air traffic control 
tower has NASA-developed-technology on board. NASA's FY 2016 budget 
request includes $571.4 million for Aeronautics to fulfill the Agency's 
strategic research agenda, addressing the most critical challenges 
facing the aviation sector. NASA is improving safety and reducing 
development costs of new aviation technologies, developing integrated 
air traffic management tools to expand airspace capacity with more 
fuel-efficient flight planning and diminish delays, and researching 
next generation aircraft configurations, efficient engines, and low 
carbon propulsion systems such as hybrid electric technology systems. 
NASA is enabling the future of unmanned and autonomous flight by 
providing technical data and analysis to directly inform FAA rulemaking 
related to Unmanned Aircraft Systems (UAS), funding technology 
development to address emerging needs for UAS integration, and 
initiating fundamental research in autonomous systems for aviation. 
Also in FY16, NASA is initiating a series of flight demonstrations 
focused on environmental performance, and expanding our portfolio of 
rapid-turnover feasibility demonstrations to infuse new ideas into our 
research program. NASA's aeronautics research continues to play a vital 
leadership role to air travel and commerce by enabling game-changing 
technologies and innovation that allow the U.S. aviation industry to 
continue to grow and maintain its global leadership role. NASA is truly 
with you when you fly.
    NASA's spacecraft are voyaging beyond the solar system, we are 
developing a mission to pass right through the Sun's atmosphere, and 
our spacecraft are exploring the planets in between. The venerable 
Hubble Space Telescope is looking back into deep time, Kepler is 
demonstrating the prevalence of planets around other stars, and the 
James Webb Space Telescope is on the way. An early version of Orion 
splashed down in the Pacific, Astronaut Mark Kelly is preparing for a 
one-year mission in space, and the Space Launch System is on track for 
a November 2018 launch capability. NASA is embracing its mission as 
never before. NASA looks forward to working with the Committee and the 
Congress to make this vision a reality.
    Mr. Chairman, I would be pleased to respond to your questions and 
those of other Members of the Subcommittee.
                               Attachment
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Cruz. Thank you very much, Administrator Bolden. 
Thank you for joining us here this morning, and thank you for 
your many, many years of honorable service to our nation.
    I'd like to start by asking a general question. In your 
judgment, what is the core mission of NASA?
    Mr. Bolden. Mr. Chairman, I've given that a lot of thought 
over the last few days, and so I went back and looked at the 
original Space Act of 1958. I won't quote it, but essentially 
our core mission from the very beginning has been to 
investigate, explore space and the Earth environment, and to 
help us make this place a better place. So that's the nut of it 
right there.
    And, I have to admit, another core part of it, because we 
have multiple--if you want to say multiple cores, which is 
hard--aeronautics is an essential part of what NASA does. It is 
the Big A in NASA. If someone from another planet came down and 
looked at our budget, they probably would not believe that, 
because it is the least funded or the skimpiest funded portion 
of the budget, but we're working on it.
    Senator Cruz. Well, there's no doubt that there are 
multiple important priorities within NASA. But I would suggest 
that almost any American would agree that the core function of 
NASA is to explore space. That's what inspires little boys and 
little girls across this country. It's what sets NASA apart 
from any other agency. It's the mission that landed man on the 
moon. It has the potential to explore new worlds beyond our 
imagination.
    You and I have had this conversation many times.
    Mr. Bolden. Yes, sir.
    Senator Cruz. And you know that I am concerned that NASA, 
in the current environment, has lost its full focus on that 
core mission, and I want to talk for a minute about the current 
budget.
    If you look at the current budget of NASA, and if you 
compare 2009 to 2016, we can see from 2009 to 2016 that Earth 
Sciences has had a 41 percent increase in the budget. In 
contrast, exploration and space operations, what I would 
consider the core function of NASA, has seen its budget drop 
7.6 percent. And looking at the remainder of the elements, 
Planetary Sciences is a 3 percent increase, Heliophysics is a 
10 percent increase, and Astrophysics is a 10 percent increase.
    In my judgment, this does not represent a fair or 
appropriate allocation of resources, that it is shifting 
resources away from the core functions of NASA to other 
functions. Do you share that assessment?
    Mr. Bolden. Mr. Chairman, I am very interested in your 
chart. However, I will say one thing. It is interesting to note 
that there is a decrease in exploration or human spaceflight 
when, in fact, that was somewhat intentional because we were 
trying to get the cost of exploration down as we reached 
farther out into the solar system. It used to cost us $2B a 
year to maintain the Space Shuttle, whether we flew it or not. 
Today, NASA pays--I want to say we now have two contracts that 
are in the neighborhood of about $6.8B that will give us 16 
fights on a combination of Boeing and SpaceX missions, carrying 
American astronauts to space. That will probably take place 
over about maybe three or 4 years.
    So I think that decrease is actually a little bit of what 
we were trying to do, get the cost of flying humans into space 
down. That's what's driving the market, is reducing launch 
costs.
    So the fact that Earth Science has increased, I'm proud to 
say it has enabled us to understand our planet far better than 
we ever did before because it's absolutely critical.
    If I go back to what used to be my home state, and your 
state, the state of Texas, we have the Texas Soil Observation 
Network, which is strongly supported by NASA. Senator, I don't 
need to tell you, when I lived in Houston, the elevation sank a 
matter of inches over the period of time that I lived there, 
and that was because we were pumping water out of the ground 
and we just didn't realize what was going on.
    But now, because of some of NASA's efforts, we have 
satellites that are able to look and actually measure the 
difference in gravitational field of Earth, and we can tell 
that we're emptying out the aquifers, and that's just looking 
at our environment, trying to make sure that we have a better 
place for all of us in which to live. I think that's critical.
    Senator Cruz. I am confident, though, that it's not your 
testimony to this subcommittee that NASA has all the resources 
it needs----
    Mr. Bolden. Oh, no.
    Senator Cruz.--for space exploration----
    Mr. Bolden. No, no, no.
    Senator Cruz.--and that it has suddenly gotten less 
expensive and more affordable. Indeed, as you know, the first 
hearing this subcommittee had, we heard from expert testimony 
as to the real challenges if we are going to go back to the 
Moon or to Mars or beyond, that it's going to require a 
significant investment. And I would suggest that this chart 
does not suggest that the investment of budgetary resources is 
going where it should, and let me note one specific matter.
    This past December, Orion completed a nearly flawless 
maiden unmanned test flight on the Exploration Flight Test 1 
mission. But despite the success of SLS and Orion, the 
President's budget request cuts funding by over $441 million. 
Does the Administration lack confidence in SLS and Orion and 
their ability to get American astronauts to space beyond low-
Earch orbit in the 2021 timeframe?
    Mr. Bolden. Senator, quite the contrary. I think the 
Administration has the utmost confidence in us, and that's the 
reason that they presented the bill for $18.5B that they did to 
the Congress.
    The President trusts me to take whatever amount of funds 
the Congress appropriates to us and appropriately balance that 
across our portfolio because we do have multiple things for 
which we are responsible.
    The fact that we now have a set date where the launch 
complex at the Kennedy Space Center and SLS will be ready for 
flight in November 2018; the fact that we're going to have a 
set date when Orion will be ready to be integrated with SLS and 
we'll have that this summer; the fact that we had a successful 
test on the solid rocket booster out at Promontory Point, Utah 
2 days ago; the fact that we now have two contractors who are 
upgrading their facilities at the Kennedy Space Center and at 
Cape Canaveral Air Force Station so that we can launch American 
astronauts to space from American soil in 2017; the fact that 
we now have a robust competition for American companies to get 
cargo to space where that used to be the job of the government; 
I think that speaks highly to the confidence that the 
Administration and hopefully this Congress has in our ability 
to do exactly what you want us to do.
    I would say--you asked me about your chart--there's a lot 
of chartsmanship. I'm not sure what you include in exploration, 
for example. So by my statements, I was not acknowledging that 
I agree with the numbers on the chart. I don't want everyone to 
say I accept the numbers on the chart, because when you talk 
about exploration, a lot of times people don't count the launch 
complex. You can't go anywhere if you don't have a place from 
which to launch. A lot of times people don't count commercial 
crew and cargo. We can't go anywhere if we don't have a robust, 
sustainable low-Earth orbit infrastructure.
    So there are a lot of things that people don't count. We 
can't go anywhere if the Kennedy Space Center goes under water 
and we don't know it. That's understanding our environment.
    So, as Senator Nelson said, it is absolutely critical that 
we understand Earth's environment because this is the only 
place that we have to live. Having had an opportunity to view 
it from a place where--I look around and I'm not sure anybody 
else here has had that opportunity. We've got to take care of 
it, and the only way we can take care of it is that we know 
what's happening. And the only way we know what's happening is 
to use instruments that we developed in NASA, and we do it 
better than anybody else. I'm proud to say that.
    I always come and brag on my workforce. We do it better 
than anybody else in the world, and that allows us to get data 
to you and Members of the Congress and the Administration, who 
make decisions. We don't make decisions. We don't give you 
opinions. We give you data.
    So I'm very proud of what we've done, and I'll go back and 
take it for the record to see whether we agree with the numbers 
on the chart, Mr. Chairman.
    [The information referred to follows:]

    The chart shows an increase in the Earth Science budget from 2009 
to 2016 of 41 percent. In the FY 2009 Appropriation, the Earth Science 
Division's fraction of the full-Agency budget was 9.1 percent, while in 
the President's Budget Request for FY 2016, this fraction is 10.5 
percent. Therefore, in absolute terms, the Earth Science fraction of 
the Agency's budget has increased by only 1.4 percent. This modest 
increase supports missions such as Orbiting Carbon Observatory (OCO-3), 
Climate Absolute Radiance and Refractivity Observatory (CLARREO) 
technology demonstration, and research & analysis. It also supports the 
transfer of activity from the National Oceanic and Atmospheric 
Administration (NOAA) to NASA for developing certain Earth-observing 
satellites (which takes advantage of NASA expertise in developing 
Earth-observing satellites).
    It is important to note that Earth Science is one of NASA's core 
missions. The Agency's authorizing statute establishes a list of nine 
objectives for the Agency, and the first of these is ``(1) The 
expansion of human knowledge of the Earth and of phenomena in the 
atmosphere and space.'' The National Academies' 2007 Decadal Survey for 
Earth Science, ``Earth Science and Applications from Space,'' 
recommended that: ``The U.S. government, working in concert with the 
private sector, academe, the public, and its international partners, 
should renew its investment in Earth-observing systems and restore its 
leadership in Earth Science and applications.'' The proposed budget for 
FY 2016 is still about 20 percent below the actual levels of the late 
1990s, which was the funding level recommended by the Decadal Survey. 
The increase demonstrates the important role that NASA Earth Science 
plays in the Nation's science priorities--including those recognized in 
the NRC Decadal Survey--and confidence in NASA's ability to effectively 
implement missions.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Cruz. Thank you, Mr. Administrator.
    I now recognize Senator Nelson for his questions.
    Senator Nelson. Well, I'm going to defer to the Ranking 
Member of the Subcommittee, but let me just point out, budgets 
are not always as clear as what we think they are. Whereas it 
does show, as you stated, the President's request from what is 
existing appropriations, which, by the way, is guided by 
Senator Shelby and Senator Mikulski, a significant plus-up in 
commercial crew, in which we clearly have an interest, we the 
United States, in being able to put Americans on American 
rockets and not pay the Russians to get to and from the 
International Space Station.
    But where it looks like that there is, as you said, about a 
$400 million reduction in the President's request for Orion and 
the Space Launch System, look at the other things that go along 
with that, exploration ground systems up $59 million in the 
President's request, exploration R&D up $93 million in the 
President's request. And then when you get to something that 
nobody understands, including this Senator, it also includes 
part of the exploration, cross-agency support, that's up $84 
million. Space technology, which is all a part of the 
exploration program, but it's a different line item, that's up 
in the President's request $129 million.
    So I think just those numbers, just looking at the 
specific, isolated SLS and Orion, doesn't tell us the whole 
story. I would defer to the Ranking Member.
    Senator Peters. Thank you, Mr. Chairman. And thank you, 
Ranking Member Nelson.
    I want to just follow along with some of the thoughts that 
both of the individuals have brought up.
    Chairman Cruz, looking at this chart, I think it's also 
important to note that if you look at a longer timeframe, 
looking back through the Bush Administration, and prior to that 
the Clinton Administration, it's my understanding that the 
money that was spent on Earth Sciences was considerably higher 
during the Clinton Administration than is currently being spent 
during the Obama Administration. So it is not as if there has 
been a big increase from a baseline. It's actually coming back 
from a major reduction that occurred during the Bush 
Administration.
    I would like to, therefore, enter into the record actually 
a report that we have from the National Academy of Sciences, 
their ``Earth Science and Applications From Space,'' a midterm 
assessment that was done back in 2007. If I may quote something 
from the report--if I may enter this, without objection?
    Senator Cruz. Without objection.
    [The information referred to follows:]

Earth Science and Applications from Space: National Imperatives for the 
                         Next Decade and Beyond

  Committee on Earth Science and Applications from Space: A Community 
   Assessment and Strategy for the Future, National Research Council

Pdf available at http://www.nap.edu/catalog/11820/earth-science-and-
applications-from-space-national-imperatives-for-the
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Peters. Thank you, Mr. Chairman.
    A quote from it is that it noted that the Bush-era 
reductions in Earth Science funding were having a ``disastrous 
consequence on Earth observation record.'' So it seems as if we 
are trying to correct what the National Academy of Sciences, 
and I know the Chairman has mentioned that he wants science to 
drive our process here, which makes sense to have it. But here 
we have the foremost experts in science in our country saying 
that the cuts that we saw in Earth Sciences were disastrous in 
the Bush era.
    So I would assume that you are taking a look at those types 
of reports from our experts and are addressing that. So how 
does this year's requested increase in Earth Science funding 
address the priorities that you see coming from the scientific 
community?
    Mr. Bolden. Senator Peters, I think you know very well we 
are guided, particularly in the science arena, by the input of 
the experts, dominantly by what we call decadal surveys. They 
are studies by learned people in specific areas that come from 
the National Research Council, and they give us guidance. It's 
not mandatory, but they give us guidance on how we should put 
our emphasis.
    So if you look at all of our programs, whether it's in 
heliophysics, planetary science, Earth science, or the others, 
we're generally trying to do what the experts say NASA should 
be putting its focus on. And you're absolutely right, across 
the board we're really trying to get the science community back 
up to the levels of spending of prior years, and that can't all 
be done at one time.
    So we take what seems to be the most important things told 
to us by the scientific community, put our focus on that, and 
also we try to look at things that are going to contribute 
ultimately, going back to Senator Cruz' comment to everything 
that we do. If there is a choice to be made, we try to put our 
focus on what is going to enable us to get humans to Mars. As I 
said before, when you look at science, areas like heliophysics, 
areas like planetary science, areas like Earth Science are all 
critical in providing data that helps us to speed our way to 
Mars.
    We're looking at radiation. We're looking at the sun 
because it determines the time of year or the time when you 
want to launch a human on a mission that's going to take eight 
months. So it's important for us to look at all that, and it's 
unfortunate that people tend to want to talk about one versus 
the other.
    We are at a time in the agency when we work more 
synergistically across our mission directorates. Science helps 
exploration. Exploration helps science. Technology development 
is absolutely critical because the most important risks that I 
have to draw down are risks that deal with technology that we 
don't have today, and that's why we asked for the increased 
funding for technology development that we've not been able to 
get.
    So it is absolutely critical that the Committees and the 
Congress trust NASA and some pretty smart people. You ask us to 
be your experts, and I consider myself to be the Congress' 
subject-matter expert when it comes to exploration science and 
aeronautics. If I'm not doing that well, you ought to fire me, 
to be quite honest.
    Senator Peters. Well, it's clear from your answer how 
science is driving us, including observations of the Earth and 
the practical applications. I think we're going to talk about 
it later. Hopefully we'll have time to talk about certainly the 
spillovers of the work of NASA into economic development and 
small business, but other areas of making sure we're studying 
our planet have very strong economic consequences, 
particularly, for example, in agriculture.
    I know NASA funds the Global Observatory for Ecosystem 
Services that's used extensively by a university in my state, 
Michigan State University, the first land grant university in 
the country, a leader in agricultural sciences. They collect 
data from LANDSAT satellites and distribute those to 
scientists, educators, and users around the world, and have 
significant applications when it comes to the agricultural 
community in this country that relies on that kind of 
information to plan and to do things related to increasing 
agricultural production.
    Are there other areas like that that you see as incredibly 
important in terms of just our day-to-day commercial activities 
here on our planet?
    Mr. Bolden. Yes, sir, there are. We just recently completed 
a conference, a meeting with policymakers and others in the 
states of California and Nevada about water, water resources, 
and letting them know how our Earth Science assets were 
available to help them understand how to utilize the limited 
water that's available, to give them hints about drought and 
flood cycles. I mentioned to Senator Cruz the Texas Soil 
Observation Network.
    Texas is a big state, and Texas has probably the fewest 
organic ways to measure things like soil moisture. Due to the 
fact that we launched the Soil Moisture Active-Passive mission 
just recently, something we call SMAP, we now are able to 
measure very accurately soil moisture in every state of the 
union and around the globe, and that is becoming essential data 
to the people in Texas in their water resources management.
    Whether you're talking about farmers or ranchers, you want 
to maximize crop yield. So we need to be able to tell them how 
to get more efficiently and effectively water into their 
particular areas. So those are the kinds of things that I would 
hope people would not overlook when you talk about what we do 
in Earth Science. It's really about making life better for 
people on this planet.
    Senator Peters. Thank you, Mr. Bolden. Another question for 
you, if I may.
    Since the end of the Shuttle program in 2011, the United 
States has relied on the Russian Soyuz for crew transportation 
to the International Space Station. The Soyuz cost, it's my 
understanding, has risen from $25 million per seat in 2010 to 
now more than $76M for us to take a ride on the Soyuz up to the 
Space Station. NASA will have paid Russia over $2.1B by the 
time domestic providers Boeing and SpaceX are able to launch 
their astronauts in 2017.
    If you could elaborate for us, please, on how failing to 
fully fund the $1.2 billion request for commercial crew program 
affects the Space Station program, and more specifically our 
continued dependence on the Russians.
    Mr. Bolden. Senator, because we are now operating on two 
firm fixed-price contracts with Boeing and SpaceX, any amount 
short of the $1.2B that we requested will mean we will have to 
reduce the milestones that the two manufacturers accomplish. We 
can't pick one over the other. We're contractually obligated to 
both. So it will mean both will be slowed down and we won't 
make 2017.
    That will mean that we'll have to go back and rely on the 
Russians continually to provide transportation for our crews, 
so that puts us at risk, as came out in my hearing with the 
House Appropriations Committee, when we have to depend on 
someone else to get our crews to the International Space 
Station. We have a great relationship. I'm not worried, but I 
would feel much better if I knew I was dependent on two 
American companies.
    Senator Peters. Well, I think we would all agree with you. 
Thank you so much.
    Mr. Bolden. Thank you very much.
    Senator Cruz. Thank you very much.
    Senator Gardner?

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Administrator Bolden, for your time and 
testimony today.
    It has been an interesting conversation, but I do think it 
merits kind of focusing back in on what we believe NASA's core 
mission to really be.
    Now, you mentioned that NASA's core mission going back to 
the 1950s, looking at the organic legislation to create the 
legislation, I kind of want to go there. We talked about water 
management in California. We talked about the Texas soil 
management system.
    I'm sorry, Chairman, I'm not as familiar with the Texas 
soil management perhaps as I should be. But I want to just ask 
a couple of questions.
    Is there any other agency or department in the Federal 
Government who is sending Rovers to Mars? There's not.
    Mr. Bolden. No, sir. There is no other nation that has a 
Rover.
    Senator Gardner. Are there any other agencies that are 
looking at soil in Texas?
    Mr. Bolden. I would hope so, but I----
    Senator Gardner. Are there any other agencies----
    Mr. Bolden. We collaborate with----
    Senator Gardner. Are there any other agencies that are 
tasked with sending Orion, which you said performed 
flawlessly----
    Mr. Bolden. Senator, I get your drift, but----
    Senator Gardner. Drift is a good point, because that's 
exactly what I want to talk about.
    Mr. Bolden. Senator----
    Senator Gardner. Because it seems to me that NASA perhaps 
has drifted away from its core mission, and I'm concerned about 
that. We have so many other agencies and departments that are 
looking at our soil sciences and our water management. And I 
understand the importance of going to space and putting a 
satellite and looking down and measuring and monitoring what we 
can do, but I am concerned that when we talk about how we're 
going to have a future of robots on Mars, that we're not 
funding the Opportunity Rover on Mars in the 2016 budget. So I 
just want to ask a few questions.
    In 2010, President Obama went to the John F. Kennedy Space 
Center, and he committed to a manned mission to Mars, correct?
    Mr. Bolden. Yes, sir.
    Senator Gardner. On December 5, 2014, Orion launched atop a 
ULA Delta-4 heavy rocket, the Orion-4 Flight Test, and you said 
it, I think--I wrote it down, because I think we tweeted it 
already--Orion performed flawlessly.
    Mr. Bolden. And some people say near flawlessly.
    Senator Gardner. Near flawlessly, OK. I'll take the 
flawless.
    Mr. Bolden. I'll take the flawless.
    Senator Gardner. A two-orbit, 4-hour flight that tested 
many of the systems most critical to safety, launch, high-speed 
reentry systems, avionics, altitude control, you name it. It 
was a success. You called it flawless.
    Would you consider Orion and SLS instrumental in achieving 
a manned mission to Mars?
    Mr. Bolden. They're absolutely essential, Senator. And I 
would also say, again, sort of as I talked to Senator Cruz 
about being careful when you draw something out and talk about 
that one thing singularly, there is, to my knowledge--and I 
will have to take this for the record, but to my knowledge, 
there is only one agency of the Federal Government that 
develops the instruments, launches the satellites and the like 
that explore our planet, to the extent that we do, and that's 
NASA.
    [The information requested follows:]

    NASA is the Nation's civil space agency. As such, NASA (among other 
activities) designs, procures, develops, and launches Earth monitoring 
spacecraft that provide critical space-based observations of our 
planet. Data from NASA Earth-observing research satellites is made 
available rapidly (often in near-real time), and thus is often used by 
other Federal agencies with ``operational missions'' to improve their 
operational products, such as weather predictions and disaster response 
planning and execution. In addition to other Federal agencies, state 
and local governments and other organizations routinely use NASA 
research data for applied and operational purposes.
    NASA solicits and funds a broad suite of research studies to 
improve our understanding of the Earth and its processes as an 
integrated system, using measurements from NASA research satellites and 
also operational and research satellites from partner agencies and 
international partners. NASA researchers also develop and demonstrate 
application products--based on the measurements of the spaceborne 
constellation and the understanding gained from the research program--
that deliver direct societal benefit and strengthen our Nation. Because 
of its unsurpassed technical and systems engineering expertise and its 
role as the Nation's civil space agency, ``operational'' agencies such 
as NOAA have utilized NASA services to develop and implement spaceborne 
Earth observation satellites in support of their missions.

    So, if we did not do it, many of the satellites that NOAA 
operates, once we get them in orbit and hand them off to them, 
they become NOAA satellites, not NASA satellites. But because 
we have the expertise, like the Jet Propulsion Lab, Goddard 
Space Flight Center, and our contractors, when you talk about 
sensors, there are not a lot of people in the world who do the 
stuff that our people do when you talk about sensors.
    So if we stop doing it, it doesn't mean that's why I think 
it's core, because if you take Earth Science out of NASA, the 
Nation loses its dominant capability to do the types of Earth 
Science investigations that this Nation does.
    So I just caution that if we're going to talk about core 
things and things that only NASA does, you really do need to 
look at LANDSAT. NASA does not own LANDSAT. LANDSAT belongs to 
the Department of the Interior. But if it were not for NASA 
producing the LANDSAT satellite because of the expertise that 
we have in developing the instruments, there would be no 
LANDSAT. That's a 40-year continuous program.
    If you took that away from NASA, we would not have it, the 
Nation would not have it. Right now, the Department of Defense 
is really hurting for weather satellites. NOAA was really 
hurting for weather satellites a few years ago when we were 
putting together a program that was ultimately canceled called 
NPOESS that was going to be a joint NASA-NOAA-DOD weather 
satellite. It was finally canceled because the cost had gotten 
out of hand, we just weren't getting anywhere close.
    NASA, because we are always looking at newer, more state-
of-the-art sensors, had developed sensors that we put on a 
satellite that was called NPOESS Preparatory Project, NPP. NPP 
is now a major weather satellite for NOAA and the National 
Weather Service that was not supposed to be a weather 
satellite. If NASA had not done that, this nation and other 
people around the world would not be able to do the things that 
they do about understanding the climate, predicting hurricanes 
and tornadoes, which we can't predict.
    But, I just caution people about saying, OK, NASA shouldn't 
be doing this. We are the core producers of instruments and 
satellites that look at this planet. We're better than anybody 
else in the world, and if you took that out of NASA, you've got 
to put it somewhere, and there are other agencies that do not 
have that.
    We are known for our program management capability. That's 
why everybody comes to us to get satellites. I think if you 
talk to Dr. Sullivan over in NOAA, if you talk to any of the 
secretaries about where they would go to get a good satellite, 
hopefully they would tell you they'd come to us.
    Senator Gardner. Well, given the comments that you made 
about President Obama's commitment to the manned mission to 
Mars, given your comments about the Orion SLS being 
instrumental in the manned Mars mission, I still don't 
understand why we have seen a reduction, then, in the Orion 
program from 2015 to 2016, the SLS program from 2015 to 2016. 
There's no doubt about it that I support science and research 
funding, but I also support identifying priorities and funding 
priorities.
    So I'm very concerned that this budget document, the 
document that Senator Cruz put forward in a chart, Chairman 
Cruz put forward in a chart about what NASA's priorities are, 
where they're at, and really if we're seeing the kind of drift 
that is going to make our mission the core mission that I 
believe it should be, difficult to reach.
    The budget request for Earth Science put a little number to 
this 41 percent increase. For Fiscal Year 2016, it is $1.95B, a 
lot of systems monitoring Earth, multiple agencies supporting 
Earth Sciences. But we are without the basic required system to 
send pioneers to Mars.
    So, a 41 percent increase, but yet NASA, the only agency, 
the only part of our government that is working on sending 
people out there, doesn't have the basic capacity to do that, 
while we're decreasing and increasing our sciences.
    So, I know I'm running out of time, but I'm concerned with 
the small amount of money that we've allocated to our mission 
that's been endorsed by the President.
    Mr. Chairman, I'll yield back to you.
    Mr. Bolden. Senator, may I make a comment? Again, I want to 
make a slight correction. You are absolutely correct that we 
don't have everything that we need to get humans to Mars. That 
is not in human exploration. That is in space technology. This 
agency and this President have been requesting--we requested a 
billion dollars when I became the NASA Administrator to 
establish a Space Technology Mission Directorate because the 
things that we're missing in being able to effectively and 
safely send humans to Mars, the majority of that is not done in 
the Human Exploration Mission Directorate. I need it to be done 
in the Space Technology Mission Directorate, and that's not 
funded efficiently.
    Senator Gardner. So why not fund the Mars Opportunity Rover 
in the 2016 budget?
    Mr. Bolden. Mars Opportunity Rover, Senator, we are getting 
incredible data from Mars through Curiosity, through 
Opportunity. We're getting ready to send InSight. We cannot 
continue to operate instruments and missions whose time has 
passed because I won't be able to put something like Insight on 
Mars in 2016 that, for the first time ever, is going to core 
deeper into the surface of the planet. I don't have a Rover 
that can do that today.
    I have to make choices. Hopefully, you trust me. Senator, 
my choice since becoming the NASA Administrator was to put $49B 
on human spaceflight and $11B on Earth Science--$498M. I'm 
sorry. Thank you--$498M on human spaceflight and $11B on Earth 
Science.
    Now, if you put that on a chart, the science community is 
going to kill me because that was the fear when I became the 
NASA Administrator, that I was going to put $498B on human 
spaceflight and I was going to put some measly amount into 
science. I have tried not to do that. I have tried to focus 
this agency on all the things it's important for us to do.
    So I think the balance overall is good--$498B for human 
spaceflight, $11B for Earth Science. I think that's a fair 
allocation for funds on the part of this Administration and 
this agency, and it's unfortunate that everyone doesn't 
recognize the fact that we've done that. That's significant.
    Senator Gardner. Mr. Chairman, you've been more than 
generous with the time.
    Mr. Bolden. Human space flight dwarfs what we've been doing 
in other areas.
    Senator Cruz. Senator Nelson?
    Senator Nelson. Senator Gardner, every now and then we have 
to put on the green eyeshades and get into the budget. The 
President's proposed budget, which you can disagree with, is a 
10 percent increase in Earth Science. It is, from $1.773 
billion, a $175 million increase. That's about 10 percent.
    Now, if you want to solve the problem of what you're 
talking about, of going to Mars and ramping it up, then what we 
need is more than the President's request of a half-billion-
dollar increase for NASA. We could pour the juice, like we did 
in the Apollo program, where the Nation's space budget was more 
like 5 percent of the entire Federal budget instead of the 
existing NASA budget being less than a percent of the total 
Federal budget, and you will certainly find this senator 
supporting you in that.
    What I have tried so hard to do in the past several years, 
in what little bit of influence I have in this committee, is to 
keep it bipartisan. The history of this committee was that it 
should never have even been bipartisan. It was non-partisan, 
and that's what NASA was. And yet, in the past couple of years, 
we got into these flaps over the sequester, and all of the 
senators on your side before you arrived were voting to cut the 
NASA budget by $1.5 billion from the President's request in 
2015, which would have absolutely eviscerated this little 
agency.
    Thank goodness we are to the point now that we are talking 
about this core mission and trying to explore the heavens and 
realizing that space flight is not cheap.
    I would also point out to my colleague from Texas that he 
and I are from Gulf states, and on June 1st hurricane season 
starts, and we are so dependent upon the protection from those 
natural disasters that plague the shores of our respective 
states by being able to have the advanced warning by virtue of 
the accurate predictions of the weather satellites.
    And as the Administrator says, NASA builds them and then 
turns them over to NOAA. And then coming up, here we've got the 
Global Participation Measurement, GPM. These are current Earth 
Science missions. What does it do? It predicts extreme weather 
events. The ISS RapidScat, it gives weather forecasting and 
storm tracking. And then I'll just give you one more. We talked 
about Soil Moisture Active Passing. That's SMAP that the 
Administrator already talked about, weather forecasting.
    All of these things, if you would look behind what appears 
to be on the surface and get in, and where you have a 
disagreement, I want to hear about it. But I don't think, and I 
certainly don't think the Chairman of the Subcommittee has a 
disagreement with trying to get accurate weather forecasting--
--
    Senator Gardner. And if you listen to my comments, I'm not 
talking about that either. I'm just talking about are we 
focusing on the heavens in NASA or are we focusing on dirt in 
Texas? So that's what I want to talk about, and I think that's 
the point of this discussion, and I think it's talking about 
how we can make sure that we're allowing NOAA to do the work 
that it's doing in weather, and allowing NASA to look at Mars, 
and allowing our agencies to work together to predict weather. 
Certainly Colorado has had its fair share of terrible, terrible 
and tragic weather events, and that's something that we have to 
fund, and we will continue to do that. I'm just trying to 
figure out where the proper role and the proper mission lies in 
government.
    But I'll remind, too, that the sequester was a bipartisan 
accomplishment. Whether or not we like it and want to change 
it, it was bipartisan.
    Senator Nelson. Well, fortunately, the sequester, thanks to 
Senator Shelby, did not happen on NASA, or else we would be way 
behind and we wouldn't be talking about launching Americans on 
American rockets in 2017. And, by the way, I'm still hopeful 
that's going to be 2016. The two companies that are competing, 
Boeing and SpaceX, still think they can make 2016 for the first 
American riding the rocket. I am not applying.
    Mr. Chairman, I want to get down in the weeds and ask the 
Administrator a technical question.
    Mr. Administrator, we're thinking on the SLS that we're 
going to have the upper stage as a Delta-4. And yet, because of 
this senator and others, such as Senator McCain and I were the 
authors in the defense authorization bill saying America has 
got to start changing its rocket engines from the Russian 
rocket engines, the RD-180, and notably the SLS will use the 
Delta-4 upper stage as a stopgap until an upper stage suitable 
for deep space missions can be developed.
    So are we spending wise money human-rating the Delta-4 as 
an interim upper stage when later on we might be shifting to 
another upper stage that we're going to develop? I know that's 
a question down in the weeds, but we need to look at that.
    Mr. Bolden. Yes, sir. Senator, we are looking at what we 
call the Exploration Upper Stage, and it is our intent that as 
we go along, as I talked about, we're looking at the total 
program. We would prefer to have the Exploration Upper Stage be 
the vehicle of choice, if you will, and just have to certify 
that vehicle. But again, because we're looking at the funding 
available for the EM-1 for the very first flight of the 
integrated system, we're going to fly with what we call the 
Interim Cryogenic Propulsion Stage, which is the Delta-4 upper 
stage. But eventually we will work our way to a single 
Exploration Upper Stage.
    Senator Nelson. And as you all develop your out-year 
budgets, do you anticipate that ULA's plans to phaseout the 
Delta-4 in 2018 is going to effect the cost and the risk of the 
SLS program?
    Mr. Bolden. Senator, I'm not aware of ULA's decision in 
that regard, to be quite honest. What I am aware of is the fact 
that we, along with the Department of Defense, are looking for 
a way to get the U.S. off reliance on engines and launch 
vehicles that depend on engines from other nations. But I don't 
have any information that talks about when or if ULA is going 
to phaseout the Delta-4. I'm sorry.
    Senator Nelson. And that's why I bring it up, because of 
what we put in the defense budget about the RD-180 and 
developing a follow-on engine to the RD-180, which is the main 
engine in the Atlas-5. I would hope that there is opportunity 
for NASA to work with DOD on a propulsion system that benefits 
both defense and civil space, particularly with regard to the 
SLS's Advanced Booster upgrade.
    Mr. Bolden. Yes, sir. Senator, we work with DOD 
continually. There is an organization that's headquartered in 
the Marshall Space Flight Center called the National--I knew I 
shouldn't have said this. It's NIRPS, and I will take it for 
the record to get someone to tell us what NIRPS stands for. 
[National Institute for Rocket Propulsion Systems] But it's an 
interagency propulsion study group, and much of our work 
emanates right there where we're talking with the DOD and NASA 
and others about what the nation needs.
    What the Nation needs is a new launch system, and my 
caution would be don't focus on the engine because engines on 
rockets don't work like people think. You don't go get a new 
engine and stick it on a rocket. You have to have an integrated 
system.
    So I think what the Air Force secretary has said, Secretary 
James has probably said, if I remember correctly, is what 
they're looking at is a new launch system for this nation, 
which would include a new American-made rocket to go with the 
American-made body. But launch systems are systems, are 
integrated systems.
    As a matter of fact, when you talked about human-rating the 
upper stage, it's not the upper stage that we human rate. It's 
the launch system that includes the upper stage. So we human-
rate SLS, Orion, and the upper stage as an acceptable human-
rated launch system, and if we change any component, we've got 
to go back in and re-rate it.
    So my only caution there is don't get hung up on the engine 
but focus on the integrated system because that's what the 
Nation needs.
    Senator Cruz. Administrator Bolden, in your exchange with 
Senator Gardner, you told this committee that NASA in your 
tenure had spent $498B on human spaceflight. Now, politicians 
are famously bad at math, but I just did some quick back-of-
the-envelope analysis, and NASA's budget is about $18B. You've 
been administrator seven years. That's $126B. So I assume you 
must have misspoken because that's over 300 percent the total 
budget of NASA for your tenure.
    Mr. Bolden. That's what I said. I am now told by my staff 
that I was right when I gave you the first number, which was 
$49B, so I misspoke. You're right.
    Senator Cruz. I assumed it must have been.
    Mr. Bolden. You're absolutely right.
    Senator Cruz. I just wanted to clarify the record.
    Mr. Bolden. You're absolutely right.
    Senator Cruz. That $498B, the math was not adding up if 
that number----
    Mr. Bolden. I'm a pilot, a Marine pilot. I should have 
known that.
    Senator Cruz. Sadly, Congress for some time has 
demonstrated an inability to distinguish between millions and 
billions, so you're in good company here.
    Mr. Bolden. Yes, sir.
    Senator Cruz. I want to note, you have spent a great deal 
of time at this hearing defending the importance of Earth 
Sciences, defending the importance of weather observation. I 
think everyone would agree with that. There's no one at this 
hearing that disagrees that we need to observe what's happening 
with our weather--that we need to know more and have weather 
satellites.
    I would note, though, that Senator Gardner's questions I 
think were quite accurate. NASA's core competence is not Texas 
soil conservation. Now, I'm a Texan. I love our Texas soil. But 
there are a lot of people studying Texas soil. We've got a 
whole U.S. Department of Agriculture that spends a lot of time 
and energy studying the soil in Texas and everywhere else.
    That ain't what makes NASA special. And I have to say, if 
NASA ever becomes the place to study Texas soil, you're going 
to lose a whole lot of bright new engineers who want to go 
explore the galaxy.
    To my mind, that exchange underscored the central point I 
made at the outset of this hearing. It's not that Earth 
sciences are not valuable, but in the last 6 years there has 
been a disproportionate increase. We've seen Earth Sciences 
increase 41 percent, and we've seen exploration and space 
operations, what should be the core mission, what NASA exists 
to do, decrease 7.6 percent. That, in my view, is 
disproportionate, and it is not consistent with the reasons so 
many talented young scientists have joined NASA.
    So it's my hope that this committee will work in a 
bipartisan manner to help refocus those priorities where they 
should be, to get back to the hard sciences, to get back to 
space, to focus on what makes NASA special. I am hopeful that 
this subcommittee will move forward with the NASA 
reauthorization and that in that process, we will continue this 
discussion of getting back to the core priorities of NASA.
    With that, I'll recognize Senator Peters for an additional 
round.
    Senator Peters. Thank you, Mr. Chairman. I would certainly 
follow on with that.
    It certainly is your core mission to go into space, but 
also aeronautics, and as I mentioned in my opening comments, we 
have to look at your portfolio as very broad. You provide the 
tools to study deep space. You provide the tools to study Earth 
Science. So if you're looking at others studying the soil of 
Texas or the soil in Michigan with Michigan State University, 
it's NASA that provides those scientists with the tools that 
they need in order to do that because of your expertise of 
going into space.
    But I want to take this last question to talk about another 
one of your core missions, which is aeronautics, which is also 
closer to the Earth, but it has been part of your history. As I 
mentioned in my opening comments, NASA came out of an 
organization that was involved in aeronautics and advancing 
commercial fight here on Earth. If you look at commercial 
applications for your technologies, there's probably no bigger 
bang to the taxpayers when it comes to your work in 
aeronautics.
    I appreciated in your opening comments talking about 
aeronautics and the substantial contributions NASA makes to 
that industry, which is a multi-billion-dollar industry here 
for the United States, and we want to continue to be the 
preeminent aeronautics country in the world, at least that's 
certainly my desire and I hope others' on the Committee as 
well.
    So I want to refer back to the National Academy's report 
that I referenced earlier from 2012 which expressed concern at 
NASA's lack of a dedicated flagship research aircraft. The 
committee noted that existing flight assets can't achieve a 
sustained supersonic flight or low-boom design goals or 
demonstrate the system-level capabilities of a highly fuel-
efficient, low-noise aircraft.
    So, Administrator Bolden, given the incredible importance 
of the aviation industry to the United States economy and the 
increasing investments being made by our international 
competitors who are, indeed, investing very heavily in this 
type of innovation, what does NASA need to keep America 
competitive in aeronautics, particularly with regard to low-
boom supersonic transport, which is likely to be the future for 
flight across the globe?
    Mr. Bolden. Senator, if I can take the opportunity to kind 
of speak to both the comments that you and the Chairman have 
made, particularly about what is our core mission and how we 
inspire people, I'm really proud to have Dr. Dava Newman, as 
Senator Nelson mentioned earlier, here to hear most of this as 
the nominee to be the deputy. One of these days you all 
hopefully, if this committee sees to support her, you will have 
someone who can come before the Committee and speak with very 
much authority about what the next generation is interested in 
and what they need.
    I would advise that there is also--and I should not do 
this, probably, but there is a supporting member sitting in the 
back row up there who is one of Dr. Newman's former students 
who can speak to her qualifications.
    When we go out and talk to students, as we both do quite a 
bit, in areas of aeronautics, in areas of space science and 
Earth science, young men and women want to know that they will 
have a place to go, and they choose majors in colleges and 
universities based on what this Nation has said its priorities 
are.
    We are worried about young men and women not wanting to go 
into the field of aeronautics because they don't see us doing 
what other nations in the world are doing. So your point about 
focusing on aeronautics is critical.
    We hope that we will see some young men and women decide 
that they want to get into the field of optics because that is 
a dying field in the United States, but that is one of the 
fields that supplies NASA's ability to be the core provider for 
Earth imaging satellites, for Earth sensors and the like.
    Going back to Senator Cruz's comment, we do not do Texas 
soil conservation. We provide instruments that provide data to 
the plethora of people who do Texas soil conservation. So I did 
not mean to mislead you, Senator, in thinking that NASA--we 
don't do any of that. We teach people how to use the 
instruments that we create. We teach them how to use the data. 
I have scientists who travel around the world and help people 
learn how to create drought and flood models, for example, from 
the data that comes from NASA-provided satellites.
    We are not the decisionmakers. We are not the people who 
decide what's good for one area or another. So I probably 
mislead the Committee if I gave you all the impression that 
that was what NASA Earth Science does. NASA Earth Science, like 
NASA Heliophysics, NASA Aeronautics and everything, going back 
to Senator Peters' question, through our low-boom testing out 
at the Armstrong Flight Research Center over the last few 
years, we have given the FAA and industry optimism that we can, 
in fact, solve the problem of sonic booms that today create 
havoc for people on the ground, break windows, do all kinds of 
stuff, and we believe that we are on the verge of developing 
technology, vehicle design if you will, that will limit the 
impact of a sonic boom on Earth. It will help to deflect it 
elsewhere, and that's the whole concept behind low boom, our 
low-boom studies.
    Due to the work that we did with the U.S. Air Force, the 
U.S. Department of Defense, the Air Force Research Laboratory 
on inadvertent impact to the ground, which is one of the things 
that kills a large number of military pilots, we worked on an 
automated system that is now credited with the save of an Air 
Force F-16 in Syria. It uses an automated system to recognize 
that where the pilot is going, the trajectory is not good. It's 
going to take him into a mountain or somewhere into the ground 
and they're going to suffer another loss due to inadvertent 
impact with terrain. That's the kind of work that we do, and 
that's vital.
    So we need to have sufficient funding for aeronautics if 
we're going to continue to do that kind of work, and that's the 
point. I'm not asking for NASA's budget to get back up to 4 
percent of the Federal budget. That would be irresponsible on 
my part. But I am asking that we support the President's budget 
as my team has laid out and recommended to the President and to 
this Congress, because we think it's the most balanced way to 
bring this nation what we need so that we maintain our 
leadership in space, science, exploration, technology, and 
everything.
    We are the world's leader. But, boy, there are people 
nipping at our heels. So if I'm not allowed to balance our 
spending the way that we have done right now, we could very 
easily fall behind in some critical areas.
    I really get concerned when we focus on an individual 
piece, we focus like a laser on an individual part of a budget 
in an agency that is multi-missioned. You would change the 
agency if we stopped doing what we have done for more than 50 
years today.
    Senator Cruz. Thank you very much, Administrator Bolden. 
Thank you for being here this morning. I think this hearing has 
been helpful.
    The hearing record will remain open for 2 weeks. During 
that time, senators are asked to submit any questions for the 
record.
    Upon receipt, Mr. Bolden, I would ask you to submit your 
written answers to the Committee as soon as possible if there 
are any additional questions.
    I want to thank you for being here this morning.
    And, with that, the hearing is now adjourned.
    [Whereupon, at 10:51 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Marco Rubio, U.S. Senator from Florida
    Thank you for your testimony Administrator Bolden. I am proud that 
Florida has such a rich history and relationship with NASA. From the 
earliest launches of rockets that established manned missions, to the 
Apollo program and the continued support for the International Space 
Station, Florida is proud to take ownership in NASA's past and will 
certainly be a part of its future.
    It is important that the Committee examine NASA's plans for human 
exploration, including collaboration with international partners and 
commercial space interests-assets that can and should be used in the 
most effective manner to serve all taxpayers and advance America's 
space competitiveness.
    NASA states that its vision is ``to reach for new heights and 
reveal the unknown so that what we do and learn will benefit all 
humankind.'' I certainly agree with this vision. But in order to 
achieve it, the agency must have a clear mission with a roadmap and 
timeline outlining how that mission will be accomplished. This clear 
mission should be firmly rooted in space exploration.
    Over the past several years, NASA has consistently increased the 
funding of earth sciences. While there may be admirable research being 
conducted in this area, I am greatly concerned that this large emphasis 
may detract from the mission and focus on NASA. I am interested in 
hearing more from the Administration on this topic.
    Also, I believe one of the best ways to promote the core mission of 
NASA is through continued support for our commercial partners. In 
Florida, for instance, commercial partners are seeking to use NASA 
facilities and purchase equipment that is underutilized and in need of 
maintenance.
    According to NASA's Office of the Inspector General (OIG), NASA is 
the ninth largest Federal Government real property holder, with more 
than 124,000 acres and over 4,900 buildings and other structures with a 
replacement value of more than $30 billion. NASA's annual operations 
and maintenance costs have steadily increased, and as of 2012, the 
Agency had over $2.3 billion in annual deferred maintenance costs. We 
should examine a way to alleviate these operations and maintenance 
costs in a way that complements the efforts of both NASA and the 
commercial space industry.
    Again, I believe that NASA and our space program are at their best 
when we have a clearly defined mission and goals that allows the agency 
and commercial industry to advance American ingenuity and the 
boundaries of human discovery. It is imperative that we continue to 
have a funded robust space exploration program that promotes America's 
economic, scientific, and security interests, and that effectively 
utilizes its resources. Thank you.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                      Hon. Charles F. Bolden, Jr.
    Question 1. Do you support the mission to Mars?
    Answer. Yes.

    Question 2. Why hasn't NASA requested funding for the 130 ton 
launch capability that will take us to Mars?
    Answer. NASA's strategy for incrementally increasing the SLS lift 
capability is driven by the need for lift capacity in each exploration 
regime. Per the 2010 Authorization Act, NASA is starting with the 70mt 
initial capability and will advance from there to meet exploration 
objectives, arriving at the Mars-class 130 mt capability when it is 
needed. Our analyses show the 105 metric ton (mt) configuration, made 
possible by the addition of an Exploration Upper Stage, enables a 
variety of human and cargo missions in the proving ground of cis-lunar 
space, which are necessary to prepare for future missions to Mars. Once 
we are ready for missions to the vicinity of Mars, we will progress to 
the 130-mt configuration. NASA could not accomplish these human 
exploration missions effectively and efficiently without the evolving 
capabilities of SLS.

    Question 3. How does the rising cost and overall shortage of helium 
impact NASA's propulsion testing and what cost reduction measures is 
NASA taking to mitigate these rising costs?
    Answer. NASA's helium contracts were recently re-competed for FY15-
19. The contract provides a fixed price for helium thru FY 2019. There 
was a 16 percent price increase as compared to the previous (FY10-14) 
contract period. This was partly due to a 10 percent increase in FY15 
Federal Crude helium pricing.
    Helium is provided by refiners thru the Federal ``In-Kind'' 
Program, where the crude helium feedstock is supplied and priced by the 
Bureau of Land Management (BLM) on a yearly basis. Through this 
program, NASA attains price stability for refined helium and maintains 
priority status for helium supply per the Helium Privatization Act of 
1996 (now expired) and reaffirmed in the Helium Stewardship Act of 2013 
(HSA).
    The rising cost and overall shortage of helium has heightened NASA 
sensitivity to helium pricing and availability and are a catalyst for 
increased emphasis on reducing helium use and pursuing recovery/
reclamation opportunities. Current helium reduction initiatives are 
described below.
Propulsion Systems
    NASA is working to develop sensors to reduce over purging of 
hydrogen systems with helium. One example is a hydrogen vent line 
sensor developed by Glenn Research Center (GRC) and demonstrated at 
Stennis Space Center (SSC). The sensor will be tested at Kennedy Space 
Center (KSC) to move toward FY16 qualification for use at Pad 39 B for 
the Space Launch System (SLS) program.
    Stennis Space Center (SSC) is NASA's primary rocket test site for 
large hydrogen fueled rockets such as the RS-25, which powered the 
Space Shuttle in the past and will power the Space Launch System (SLS) 
in the future; and the RS-68, which powers the Delta 4 launch vehicle. 
Hydrogen propulsion requires the use of helium as a purge gas and for 
inerting tanks and lines since it is the only gas with a boiling point 
lower than hydrogen. SSC routinely buys large quantities of gaseous 
helium for these uses to support its testing operations. In support of 
engine testing, NASA includes conservation measures such as changes to 
operational procedures and a focus on reducing leakage in systems which 
has resulted in reduced helium requirements over the last decade.
    Kennedy Space Center (KSC) is the primary rocket launch site for 
the RS-25 and SLS. KSC also supports launches using the RS-68, which 
powers the Delta 4 launch vehicle at Cape Canaveral Air Force Station 
(CCAFS). Under a Small Business Innovation Research (SBIR) project KSC 
has investigated the potential use of Tridyne as a pressuring agent to 
reduce the mass of the helium required for tank pressurization in 
flight. KSC is looking at SLS Pad 39 B system mods to reduce helium 
usage for SLS. Currently one proposal is expected to result in 
reduction of SLS tank pulse purges between launch attempts, potentially 
reducing helium usage by up to 200,000 standard cubic feet (scf) or 
more per launch attempt.
    Both KSC and SSC have an ongoing efforts to evaluate and eliminate 
leakage in the miles of gaseous helium (GHe) pipeline systems used to 
distribute GHe to users.
Balloon Program
    The NASA Balloon Program is managed out of NASA's Wallops Flight 
Facility (WFF) and operated at the Columbia Scientific Balloon Facility 
(CSBF) in Palestine, TX. Normal annual operations include 3-4 campaigns 
with 1-9 missions per campaign. The average annual launch rate is 10 to 
16 scientific missions per year
    The Balloon Program Office (BPO) utilizes scientific balloons 
ranging in size from 4 million cubic feet (MCF) to 40 MCF. Float 
altitudes range from 90kft to 150kft. Helium is used as the lifting gas 
in the balloons. If a launch abort is necessary during the inflation 
process, the balloon is destroyed by releasing the helium into the 
atmosphere in order to protect the scientific payload or the launch 
crew. At the end of a successful mission, the balloon is separated from 
the flight train by rupturing the balloon. This action releases the 
helium into the atmosphere. BPO standard operations are designed to 
minimize helium waste. One technique employed is to transfer helium 
between multiple helium ISOPAKs to maximize helium usage.
    One technology interest of the BPO, which potentially would reduce 
the helium requirements, is the safe utilization of a lifting gas 
substitute, such as hydrogen. The BPO is in contact with the Technology 
Development Office that is monitoring development activities in this 
area.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    NASA continues to explore advanced technologies intended to improve 
helium sustainability. These projects will focus on the efficient use 
of helium and/or alternatives to helium.

    Question 4. Is there a process in which NASA can recover helium 
once it is used for testing purposes?
    Answer. Yes. NASA continues to pursue recovery/reclamation 
opportunities either through new technologies or procedural 
preservation efforts as described below.
    KSC converts bulk liquid helium to high pressure gas for 
application in our space launch programs. Investigations are underway 
to implement a gas collection/reclamation system as part of a project 
to test the use of liquid helium (LHe) pumps to replace less efficient 
conventional gas compressors. The intent is to capture and reclaim the 
pump startup purges that previously would have been vented and lost to 
the atmosphere. If successful, the intent is to implement a similar 
recovery/reclamation system in the planned replacement helium 
Conversion Compression Facility (CCF) that will support future SLS 
launches as well as support all other KSC customers.
    SLS conducted a review of helium use at our component vendors. 
VACCO produces much of NASA's cryogenic valves and disconnects. Early 
in the Space Launch System (SLS) program NASA had a helium reclamation 
system installed at VACCO to reduce the amount of helium used to test 
and checkout components during development. The system has greatly 
reduced the helium necessary for VACCO and paid for itself several 
times over. We have also loaned out the system to other government 
agencies.

  <bullet> VACCO is currently forecasting a 70 percent to 85 percent He 
        Reclamation Savings (dependent on a number of specific 
        variables associated with individual tests)

  <bullet> The initial program projections for Helium Supply cost were 
        $5.3M. However, today the current forecast for helium supply 
        costs is just over $1M due to the reclamation success.

    NASA has been pursuing helium recovery and reclamation for several 
years. Through the Small Business Technology Transfer (STTR) Program, 
two particular projects have been delivered which demonstrated the 
ability to separate helium from a hydrogen/helium gas mixture. The 
recovered helium meets the stringent purity requirements for reuse. 
Both systems use fuel cell technology to extract pure hydrogen from a 
mixed hydrogen/helium gas mixture, leaving nearly pure helium.
    The first project was designed by Sierra Lobo, Inc (SLI). SLI 
delivered a system that was installed and tested at NASA Stennis' E-3 
facility. The system demonstrated the ability to output high quality 
helium from a hydrogen/helium gas mixture. The helium/hydrogen gas 
mixture was collected, helium extracted and recovered. Below is a 
picture of a system delivered by Sierra Lobo, Inc.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The second successful test was conducted by Sustainable 
Innovations, Inc. (SII) in support of SSC. SII delivered a prototype 
unit in 2014 that successfully demonstrated the ability to capture, 
separate and compress helium from a mixture derived from test 
operations. This system featured a subsystem that captured the vented 
hydrogen and helium gas mixture, an electrochemical separation 
subsystem that effectively purified both hydrogen and helium streams, 
and a compression subsystem that permitted high pressure gas delivery. 
Each subsystem performed well in project tests and the subsystems were 
shown to integrate seamlessly.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The ability to effectively recover and reclaim helium is heavily 
dependent on how the original helium is used and the quantities 
involved. Commercial reclamation systems do exist but are typically 
utilized in closed systems and are often limited by their throughput, 
typically requiring the use of collection systems to allow batch 
processing of any contaminated helium.
    With the largest NASA helium uses occurring during launch 
operations and engine testing, the challenge for NASA is multi-faceted. 
SSC in partnership with KSC has an FY15 Small Business Innovative 
Research (SBIR) initiative that seeks to improve upon the demonstrated 
technology or develop new alternative cryogenic gas separation 
technology. Additional development is needed to increase the efficiency 
of the recovery process, capture large amounts of mixed gases, and 
provide real-time solid state sensor technologies for characterizing 
constituent gases. Specific areas of interest includes the following 
technologies:

  <bullet> enhanced membrane technologies including Proton Exchange 
        Membrane (PEM) fuel cells that increase the efficiency, 
        recovery production rate or life span of fuel cell based 
        separation technologies;

  <bullet> development of alternative cryogenic gas separation 
        technologies;

  <bullet> technologies for the rapid capture and storage of high 
        volumes of mixed cryogenic gases;

  <bullet> development of zero trapped gas system technologies to 
        improve purge effectiveness; and

  <bullet> development of real-time, solid state sensor technologies 
        for monitoring the current state of the system concentration 
        levels and helium/nitrogen purge process effectively (e.g., 
        hydrogen, oxygen, water vapor content, etc.).

    For NASA's Balloon Program Office (BPO), helium is the lifting gas 
(i.e., the propellant) for BPO missions. Just as other propellants are 
consumed in the mission, helium is consumed in BPO missions. It is not 
considered feasible to recapture the helium at the end of a 
stratospheric balloon mission, since the termination technique requires 
the rupture of the balloon envelope to bring the scientific instrument 
back to earth safely.
    In summary, NASA continues to investigate opportunities to recover 
and collect contaminated launch and engine test helium especially for 
smaller GHe usage quantities or program tests that lend themselves to 
closed loop systems.

    Question 5. From a cost benefit standpoint, assuming helium cost 
will only continue to rise, would it not make sense for NASA to 
research and develop propulsion test technology to reclaim and store 
helium for future use?
    Answer. NASA continues to pursue ways to reduce and/or reuse 
helium. Some of the challenges that must be overcome include scale-up 
of the technology to allow large volumes of mixed gases to be processed 
and capture of mixed purge gases during test operations without 
affecting performance of the rocket engine system. The programmatic 
challenge is the upfront cost to deploy the technology, the scale on 
which these systems can operate, and the limited number of areas in 
which NASA could actually use it (primarily for hydrogen transfer line 
and tank inerting operations). Helium would have to become considerably 
more expensive (or supply more uncertain) to justify a return-on-
investment case, or additional funding would be required just based on 
the principle that conservation of helium is strategically important.
    Today helium is the highest value gas used in propulsion testing. 
NASA's current supply from our ``In-Kind'' Program managed by the BLM 
offers price stability and priority of supply under the Federal 
Program. The increased costs of helium and potential impacts 
particularly when the Federal Helium Reserve closes, makes the helium 
conversation more important from a product cost and future supply 
aspect. The challenge is how to do it efficiently and in a cost 
effective manner.

    Question 6. Why has NASA steered ocean science funding away from 
Stennis Space Center?
    Answer. NASA uses the annual omnibus solicitation, Research 
Opportunities in Space and Earth Sciences (ROSES) to compete program 
elements in the Science Mission Directorate, including oceans. These 
Federal opportunities in ROSES are open to all eligible domestic 
institutions, including Stennis Space Center. Awards to successful 
institutions are made following the NASA peer review process.

    Question 7. No ROSES grants were awarded to the Gulf of Mexico 
Initiative in 2014. Is NASA abandoning the Gulf of Mexico Initiative?
    Answer. The Gulf of Mexico is an important region to NASA and the 
Nation. In the aftermath of Hurricanes Katrina and Rita, NASA's Applied 
Sciences Program undertook the Gulf of Mexico Initiative (GOMI) focused 
on the Gulf region to help build capabilities in applying Earth Science 
data. Through two special competitive grant solicitations, NASA's 
Applied Sciences Program sponsored 48 projects to improve the use of 
Earth observations to support water resources, health, disasters, 
agriculture, and ecosystem management in the Gulf region.
    With the completion of the last GOMI Project in January 2013, the 
need for a dedicated, capacity-building effort focused on the Gulf has 
been addressed. Other competitive research programs in NASA's Applied 
Sciences Program and the broader Earth Science Division have and will 
continue to encompass coastal management issues and the Gulf region 
through peer-reviewed solicitations.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                      Hon. Charles F. Bolden, Jr.
    Question 1. Your budget request for NASA's Science Mission 
Directorate (SMD) is $5.28 billion--roughly 28 percent of the entire 
NASA budget request of $18.53 billion.
    Moreover, this request for the Science Mission allocates the 
largest proportion of funding--$1.95 billion--to the Earth Science 
account. The Earth Science program includes several accounts associated 
with climate change research.
    In our current financial environment, where we have enacted budget 
caps on discretionary spending, why is NASA spending over 10 percent of 
its total budget on the Science Mission and climate change research?
    Answer. The National Aeronautics and Space Act, as amended [P.L. 
85-568, 72 Stat., 426], states the first objective for NASA is to 
contribute to ``The expansion of human knowledge of the Earth and of 
phenomena in the atmosphere and space.'' Thus, Earth Science has been 
part of NASA's core mission since NASA's early years. The President's 
FY 2016 request for Earth Science is slightly over 10 percent of the 
total agency request. This is not much different from actual 
appropriations for the last four fiscal years (FY 2012-2015), which 
average 10.0 percent, ranging from 9.8 percent (FY 2013) to 10.3 
percent (FY 2014).
    Within the overall NASA Earth Science activity, climate change 
research remains an important--although not the sole--element of Earth 
Science study. Indeed, measurements from many NASA Earth observing 
research satellites are used routinely by other Federal agencies to 
improve their operational products and forecasts. For example, 
measurements from NASA's Global Precipitation Measurement (GPM) Core 
Observatory/GPM constellation, Moderate Resolution Imaging 
Spectroradiometer (MODIS), and the Jason-2 ocean altimeter mission are 
used routinely by NOAA and the DOD weather services to improve global 
and regional weather forecasts and extreme event predictions. Soil 
moisture data from GPM, Gravity Recovery and Climate Experiment 
(GRACE), and the Soil Moisture Active-Passive (SMAP) mission are used 
routinely by NOAA and FEMA to produce daily flood hazard forecasts and 
drought monitoring products. Data from the NASA MODIS instruments are 
used by civil and DOD agencies for a variety of environmental forecasts 
including dust storm and visibility predictions.
    NASA collaborates closely with the other Federal agencies involved 
in climate research, through mechanisms such as the legislatively-
mandated U.S. Global Change Research Program. However, NASA is the only 
civil Federal organization that can procure, develop, and launch Earth 
monitoring spacecraft that provide critical space-based observations to 
support research, and then conduct the scientific research they bring 
forward. NASA provides sustained and experimental observations, and 
focuses on space-based platforms to advance research, technology 
development, and national capabilities. These responsibilities are 
described in the National Plan for Civil Earth Observations. The 
results from these activities are documented in peer-reviewed 
literature, and the resulting information and knowledge are made 
routinely and widely available to scientists, managers, and citizens 
throughout the Nation and the world. NASA's Earth research covers 
diverse topics, both long- and short-term phenomena and processes, 
including those associated with droughts, floods, fires, air pollution, 
land cover/land use change, oceans, and polar ice.

    Question 2. The administration's budget request proposes to cut 
funding for the heavy-lift Space Launch System (SLS) rocket by $343 
million. It also proposes to cut the Orion crew capsule by nearly $98 
million. There is concern that these cuts may prevent NASA from meeting 
its schedule to test Orion and SLS, and its goal of a manned SLS/Orion 
mission by 2021.
    Given all this, how does it make sense to allocate $1.95 billion to 
Earth Sciences and climate change research while underfunding SLS and 
Orion?
    Answer. The FY 2016 President's Budget Request is consistent with 
the outyear profile proposed in the FY 2015 Budget and provides the 
funding level needed to keep SLS, Orion, and Exploration Ground System 
(EGS) on track for the first integrated launch of Exploration Mission-1 
(EM-1). We have identified our Agency Baseline Commitment for the SLS 
and EGS which supports a launch capability readiness date of November 
2018 at 70 percent and 80 percent Joint Confidence Level (JCL), 
respectively, to the EM-1 launch readiness date. The integrated launch 
date for EM-1 is to be determined after all three programs complete 
their Critical Design Reviews (CDRs). The integrated launch date for 
EM-2 will be set following the EM-1 mission.
    While maintaining planned funding levels for SLS and Orion, the FY 
2016 Request provides Earth Science with funding to address the 
priorities set forth in the 2007 Earth Science decadal survey.

    Question 3. How does climate change research help ensure American 
leadership in deep space exploration?
    Answer. NASA has since 1958 been charged with expanding human 
knowledge of the Earth and of phenomena in the atmosphere. As part of 
this responsibility, climate change research produces valuable and 
executable scientific knowledge that is actively being applied by the 
international community, policy makers, and industry to better 
understand the challenges posed by climate change, which in turn 
improves our Nation's posture in addressing these challenges now and 
into the future. We conduct climate change research for those reasons 
rather than to support deep space exploration, but studying climate 
change improves our ability to address and plan for its societal and 
economic impacts, which in turn will help us maintain our global 
leadership in space for science and exploration.

    Question 4. How does climate change research assist in the 
development, construction, and testing of SLS and Orion?
    Answer. NASA studies climate for many reasons. Any benefits to the 
development and testing of SLS and Orion are secondary. However, many 
NASA Centers and assets reside in vulnerable locations. The Johnson 
Space Center, Kennedy Space Center, Stennis Space Center, Michoud 
Assembly Facility, Wallops Flight Facility, and Jet Propulsion 
Laboratory have significant involvement in NASA's launch and rocket 
programs, and each are vulnerable to climate-induced changes. For 
example, Johnson, Kennedy, Stennis, Michoud, and Wallops are vulnerable 
to sea level changes and climate-induced upticks in extreme weather 
conditions, such as hurricanes and tropical storms. Meanwhile, JPL is 
vulnerable to geohazards such as landslides, earthquakes, wildfires, 
and even water shortages. NASA assets closely monitor changes in the 
climate that create these increasing vulnerabilities, to produce 
analyzable data to address these vulnerabilities. For example, NASA's 
Applied Science Program is dedicated to helping public and private 
organizations apply data from NASA's Earth-observing satellites and 
related scientific findings in their decision-making activities, to 
improve the quality of life and strengthen the economy. Both SLS and 
Orion will make prominent use of NASA Centers, some of which are 
vulnerable to changing environmental conditions. Our study of these 
changes will ultimately help us ensure NASA assets are as secure as 
possible.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                      Hon. Charles F. Bolden, Jr.
    Question 1. The people, facilities and capabilities of NASA at 
Kennedy Space Center are one of Florida's most treasured and iconic 
assets, and I look forward to their participation in future Exploration 
missions.
    However, as a new commercial space industry and marketplace begins 
to take root across the country and abroad, I am concerned the existing 
Federal regulations and requirements at KSC will unfairly disadvantage 
the State of Florida from competing in these new opportunities.
    How are you now working with the state to help eliminate Federal 
impediments to a more favorable commercial operating environment? What 
steps are you taking to implement the expedited transfer of unneeded 
NASA assets the State's spaceport authority may be willing to take over 
and operate in partnership with commercial users?''
    Answer. NASA has taken a number of actions to significantly reduce 
impediments to commercial operations. One example is the revision of 
safety requirements for commercial operators. Under the new rules, 
commercial entities operating within their own facilities or facilities 
that they have leased from NASA, need only follow OSHA and other 
relevant Federal safety and environmental requirements. Another 
initiative is related to the development of new commercial facilities 
on KSC. Such facilities may be constructed using Florida State building 
codes rather than the sometimes more restrictive NASA standards.
    NASA has worked with both the State of Florida and commercial 
entities to provide a number of assets for use by the commercial space 
industry. Specifically, the State of Florida already has a Use Permit 
to operate the Orbiter Processing Facility 3 (OPF3) and associated 
Processing Control Center (PCC) which will be used by a commercial 
space industry company. We have also leased Launch Complex 39A to a 
commercial space launch provider for their use. We are in the final 
phases of providing the use of the Shuttle Landing Facility and 
associated land around the facility for a total of approximately 4,000 
acres to the State of Florida to develop commercial operations.

    Question 2. Competition is a key to controlling costs over the 
long-term as well as to improving the level of safety. Do you agree 
with this statement?
    Answer. NASA agrees that competition is one key to controlling 
costs and helping to improve the level of safety. For this reason, 
supporting multiple competitors in our commercial cargo and crew 
programs is considered critical.

    Question 3. In your opinion, what is the single greatest threat 
facing American access to space? And what is the best option for 
overcoming that threat?
    Answer. Access to space for NASA should be considered in three 
categories:

  <bullet> crewed missions to Earth orbit (i.e., Commercial Crew 
        Program to transport crews to and from the International Space 
        Station [ISS]);

  <bullet> uncrewed, expendable launch vehicles putting NASA's and the 
        civil sector's satellites in Earth orbit and robotic planetary 
        probes in space; and

  <bullet> heavy lift launches beyond low-Earth orbit for both crew and 
        cargo (i.e., NASA's Space Launch System).

    The greatest threat facing American access to space for crewed 
missions to Earth orbit is the current lack of capability to launch 
astronauts to orbit from U.S. soil. NASA's Commercial Crew Program is 
our answer to that threat, and we are well on our way with the progress 
our two commercial partners, Boeing and SpaceX, are making. The best 
way to secure this capability is to fully fund the FY 2016 President's 
Budget Request, which is required to keep NASA and both of its 
commercial partners on track to achieve first flights of these new 
crewed vehicles to ISS by the end of 2017.
    For uncrewed expendable launch vehicles, NASA has a robust 
mechanism through its Launch Services Program to acquire and manage 
such services for the launch of NASA's satellites and planetary probes. 
NASA acquires these launch services on a competitive basis, with the 
vendors responsible to sustain and mature their systems and to deal 
with supply problems, including engines for their vehicles. The ISS 
cargo resupply endeavor managed under Commercial Resupply Services 
contracts has resulted in new medium class launch capabilities for 
science missions. NASA is evaluating the impact of the recent loss of 
SpaceX-7. The key for access to space in this category is encouraging 
and promoting an environment of innovation and competition for our U.S. 
commercial launch service providers.
    For heavy-lift launch capability for crews and cargo beyond low-
Earth orbit, NASA is progressing well in the development of the Space 
Launch System, and its planning its evolution consistent with the 2010 
NASA Authorization Act. Careful management of this program to both 
achieve a timely, successful first flight and an affordable production 
and operations cost for future flights is a major focus for NASA.

    Question 4. I too often hear in Florida about challenges in 
launching from the Cape, and I fear companies may choose to launch 
elsewhere because of those challenges. What issues prevent a completely 
independent commercial launch capability in Florida, and what is NASA 
doing to overcome these issues?
    Answer. Consistent with the 2010 National Space Policy and the 2013 
National Space Transportation Policy, NASA leadership has been seeking 
to increase commercial utilization of the Kennedy Space Center (KSC) 
resources and to allow the commercial sector to demonstrate competitive 
and innovative approaches, to ultimately reduce space exploration costs 
for several years. In FY 2011, NASA began the 21st Century Space Launch 
Complex (21CSLC) initiative to support launch infrastructure, enable 
future exploration of the solar system, as well as new commercial 
opportunities in low-Earth orbit. Its primary purpose is to modernize 
and transform the Florida launch and range complex at Kennedy Space 
Center (KSC), Cape Canaveral Air Force Station (CCAFS), and Wallops 
Flight Facility (WFF) into a more robust launch capability that could 
support multiple users. Beneficiaries of this activity included current 
and future NASA programs, other U.S. Government agencies, and 
commercial industry.
    The KSC has developed a multi-use, operational approach with the 
goal to accommodate commercial launch and reentry activity from KSC 
property while preserving public and property safety, and minimizing 
Governmental burden. KSC first developed a Future Development Concept 
with the broader national space community, which led to a KSC Master 
Plan that provides a flexible framework for evolving to a multi-user 
spaceport. This plan, available at: http://masterplan.ksc.nasa.gov/, 
describes how KSC will continue to transform over the next 20 years as 
a multi-user spaceport supporting government, commercial and other 
space launch users and providers. This 20-year plan describes KSC's 
future state, along with the supporting business focused implementation 
and operating framework necessary to enable this transformation.
    Given the phase out of Space Shuttle operations, KSC recognized the 
need to safely manage a multi-use spaceport containing new NASA 
programs and commercial activity. KSC's current commercial safety 
policy is a set of requirements which ensures that NASA KSC is 
exercising reasonable diligence to protect the public and Center 
personnel, and safeguards the success of NASA missions and operations, 
while enabling commercial activities to the maximum possible extent. 
This supports KSC's commitment to safety while providing commercial 
partner autonomy in managing their operations.
    One of the challenges in planning for Commercial Operations on KSC 
property has been flexibility in Range Flight Safety Services for 
launch operations. NASA is working with the Air Force (including the 
45th Space Wing) and the Federal Aviation Administration (FAA) to 
define and implement the steps necessary to accommodate commercially-
provided range flight safety services options for the commercial space 
industry when they launch within the Eastern Range (including from KSC 
property) under an FAA license.
[					
				[all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
